              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




    Service Performance Measurement
          Data – Commercial Mail

                      Audit Report




                                         September 6, 2011

Report Number CRR-AR-11-003
                                                                       September 6, 2011

                                             Service Performance Measurement Data –
                                                                    Commercial Mail

                                                         Report Number CRR-AR-11-003



IMPACT ON:
Service Performance Measurement data           service performance measurement.
for commercial mail currently comes            Management is taking action to address
only from certified Full-Service mailers.      these issues. The Postal Service
For Quarter (Q)3 of fiscal year (FY)           simplified Start-the-Clock business
2011, only 12 percent of Full-Service          rules, is generating compliance reports
Intelligent Mail® Barcode (IMb™) mail          to identify the type and magnitude of
was included in service performance            data exclusion errors, used data from
measurement. The U.S. Postal Service           certified Full-Service mailers through Q3
anticipates increased data yield as a          of FY 2011 to examine and reduce
result of process improvements in Q4,          electronic Document (eDoc) and other
FY 2011. Despite their planned efforts,        errors, and implemented enhancements
problems remain which could delay or           to data systems to improve data
deter successful IMb-based service             accuracy. In addition, the Postal Service
performance measurement.                       delayed Full-Service eDoc postage
                                               corrections for Full-Service IMb
WHY THE OIG DID THE AUDIT:                     mailpieces that did not qualify for the
Our objective was to determine whether         discounts they received.
the process to obtain service
performance measurement scores for             WHAT THE OIG RECOMMENDED:
commercial mail is operating effectively.      We recommended the Postal Service
This audit addresses strategic,                establish milestones for implementing
operational, and financial risk.               recovery of discounts provided to
                                               mailers when Full-Service mailings do
WHAT THE OIG FOUND:                            not meet the specific requirements for
Based on our interim audit work, we            discounts received.
determined the process used to obtain
scores for commercial mail is ineffective.     WHAT MANAGEMENT SAID:
Specifically, the Postal Service did not       Management agreed with our findings
meet its initial milestones for                and recommendation.
implementing this process because
management underestimated the                  AUDITORS’ COMMENTS:
complexity of obtaining reliable data.         We consider management’s comments
Excessive electronic documentation             responsive.
errors and data exclusions reduced the
amount of information available for            Link to review the entire report
September 6, 2011

MEMORANDUM FOR:            ELLIS A. BURGOYNE
                           CHIEF INFORMATION OFFICER AND
                           EXECUTIVE VICE PRESIDENT

                           PRITHA N. MEHRA
                           VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                           TECHNOLOGY

                           JAMES P. COCHRANE
                           VICE PRESIDENT, PRODUCT INFORMATION


                              E-Signed by Darrell E. Benjamin, Jr
                                VERIFY authenticity with e-Sign

FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue & Systems

SUBJECT:                   Audit Report – Service Performance Measurement Data –
                           Commercial Mail
                           (Report Number CRR-AR-11-003

This report presents the interim results of our audit of Service Performance
Measurement Data – Commercial Mail (Project Number 11RG008CRR001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Revenue, and Rates, or me at 703-248-2100.

Attachments

cc: John T. Edgar
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

eDoc Errors ..................................................................................................................... 3

SASP Data Exclusions .................................................................................................... 4

Postal Service Corrective Actions ................................................................................... 5

Ongoing Audit Work ........................................................................................................ 6

Discounts Provided for Unqualified Full-Service IMb Mail ............................................... 6

Recommendation ............................................................................................................ 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology .......................................................................... 13

   Prior Audit Coverage ................................................................................................. 14

Appendix B: Monetary Impacts ..................................................................................... 17

Appendix C: Management’s Comments ........................................................................ 18
Service Performance Measurement Data –                                                            CRR-AR-11-003
 Commercial Mail


Introduction

This report presents interim results of our audit of Service Performance Measurement
Data – Commercial Mail (Project Number 11RG008CRR001). The U.S. Postal Service
requested this audit. Our audit objective is to determine whether the process to obtain
Service Performance Measurement scores for commercial mail is effective. This audit
addresses strategic, operational, and financial risk. See Appendix A for additional
information about this audit. Our audit work is ongoing and this interim report addresses
issues identified thus far in our audit. We will report our final results at the conclusion of
our audit.

The Postal Accountability and Enhancement Act requires the Postal Service to measure
service performance for market-dominant products and report to the Postal Regulatory
Commission (PRC). The Postal Service requested — and the PRC approved —
allowing commercial mail to be measured using the Intelligent Mail® barcode (IMb™). 1
The Full-Service IMb program 2 creates the infrastructure and processes needed to
gather scanned mail data, combine it with data from mailers, and produce actionable
information, including service performance measurement, for both customers and the
Postal Service. The PRC reviews this data to ensure service standards are met, assess
customer satisfaction, and ensure delivery performance does not deteriorate under the
current rate-setting process.

The Postal Service spent approximately $185 million dollars3 to implement the
Seamless Acceptance Service Performance (SASP) system and the Intelligent Mail
Accuracy and Performance System (iMAPS) to report service performance
measurement. However, the systems depend on mailer participation in Full-Service IMb
and the accuracy and reliability of reported data. Mailer participation in Full-Service IMb
from October 2010 through May 2011 totaled 33.6 billion mailpieces as summarized in
Table 1 below:




1
  The Postal Service described the vision for Intelligent Mail in the 2003 Intelligent Mail Corporate Plan: “place an
information-rich code on all mail, aggregates of mail, and business forms, enabling end-to-end visibility into the mail
steam.”
2
  Under the Full-Service option, Full-Service mailings require a unique IMb on each mailpiece. Full-Service mailers
also submit postage statements and mailing documentation electronically.
3
  The Postal Service spent $116 million dollars on SASP through November 2009 and has spent or obligated
$69 million for iMAPS through FY 2014.
                                                            1
Service Performance Measurement Data –                                                    CRR-AR-11-003
 Commercial Mail


                        Table 1: Mailer Participation in IMb Summary
                              October 2010 through May 2011

                                Mailpiece Volume (in thousands)
                                                                                    Percentage IMb
    Mail Class                IMb Full-Service            Total Commercial             Full-Service
    First-Class™                   14,562,776                    30,520,450                   47.71
     Standard                         16,678,586                  54,305,188                      30.71
     Periodicals                       2,353,108                   4,773,811                      49.29
      Totals                          33,594,470                  89,599,449                      37.49
       Source: Intelligent Mail Update – May 2011; data provided by Postal Service Headquarters, manager,
       Mailing Information Systems.

Currently, there are significant issues regarding data accuracy and reliability resulting in
unreliable service performance scores. Between October 1, 2010, and February 3,
2011, the Postal Service submitted three requests to the PRC for temporary waivers
from periodic reporting for service performance measurement. These requests related
to quarterly reporting of various mail types. On June 16, 2011, the PRC responded to
the Postal Service and either denied or accepted the requests. The following classes of
mail were included:

   Standard Mail: denied with a requirement for a measurement plan by
    August 1, 2011. While this issue is being resolved, the Postal Service shall report
    Standard Mail® service performance.

   Periodicals: denied with a directive to report all Periodicals data regardless of
    whether or not it meets the Postal Service’s self-imposed data sufficiency
    thresholds beginning with Q4, fiscal year (FY) 2011.

   Presort First-Class Mail: accepted until Q4, FY 2011, when all data shall be
    reported regardless of whether or not it meets the Postal Service’s self-imposed
    data sufficiency thresholds.

Conclusion

Based on our interim audit work, we have determined the process used to obtain
service performance scores for commercial mail is not effective. The Postal Service has
experienced significant data quantity, accuracy, and reliability issues resulting in
approximately 88 percent of Full-Service IMb mail being excluded from service
performance measurement. Specifically, there are high volumes of:

   Electronic Document (eDoc) errors
   SASP data exclusions

These issues contributed to a reduction in the volume of usable IMb commercial mail
which is needed to determine scores. This occurred because the Postal Service


                                                      2
Service Performance Measurement Data –                                                         CRR-AR-11-003
 Commercial Mail


underestimated the complexity of the various requirements needed to fully implement
service performance measurement. The Postal Service is currently taking corrective
action to address these issues.

Finally, mail determined to be ineligible for the full-service IMb discounts due to errors is
currently being given the discount. Currently, there is no planned date for actual
disallowance of the discount for this mail. As errors continue to exist in these mailings,
data will continue to be excluded from service measurement.

We will continue our evaluation of measurement methodologies and corrective actions
in-progress to determine whether they will result in an effective process to obtain
service performance scores for commercial mail.

eDoc Errors

The Postal Service has identified 19 reasons that can exclude data from service
performance measurement, several of which relate to errors in eDocs submitted by
mailers.

The Postal Service uses a census approach to ensure that each container, handling
unit, and mailpiece meets Full-Service IMb preparation requirements. During Quarters 2
and 3, FY 2011, approximately 656.5 million eDoc verification errors occurred because
mailers did not prepare the mailing or the eDoc in accordance with requirements. Errors
in the Unique Barcode 4 and the By/For 5 data fields comprised 91 percent of the eDoc
verification errors, as shown in Table 2.




4
  Errors occur when a submitted eDoc contains Intelligent Mail Container Barcodes, Intelligent Mail Tray Barcodes
(for trays/sacks), or IMbs (for pieces) that are not unique within the mailing and/or across mailings within the
configurable limit (currently 45 days).
5
  Error occurs when the “submitted mail owner” or “mail preparer” data field is missing or when the mail owner or mail
preparer identifiers in the form of Customer Registration Identifications, Mailer Identifications and/or Permits are
invalid for pieces from a mailer within a job.


                                                          3
Service Performance Measurement Data –                                                             CRR-AR-11-003
 Commercial Mail



                                Table 2: eDoc Verification Error Summary
                                            Qs 2 and 3, 2011


                                              Number of                                Percentage of
                  Type of Verification Error   Errors                                    Total Errors
                 Unique Barcode              317,768,337                                      48.40%
                 By/For                      281,821,995                                      42.93%
                 Delivery Point               20,810,044                                       3.17%
                 Customer/Supplier Agreement  12,838,676                                       1.96%
                 Mailer ID                    12,718,508                                       1.94%
                 Service Type Identifier       6,929,324                                       1.06%
                 Appointment                   2,592,232                                       0.39%
                 Default Tray Barcode          1,017,389                                       0.15%
                 Entry Facility                    7,607                                         0.00
                  Totals                     656,504,112                                    100.00%
                    Source: MicroStrategy Mail Data Quality, Error Verification Report

If eDoc errors are identified in any containers or handling units, the mailpieces are
excluded from service performance measurement and disqualified from receiving
Full-Service discounts. 6

SASP Data Exclusions

In addition to eDoc errors, other things can occur during mail processing that can result
in exclusions from service performance measurement. For example, the SASP system
identifies data exclusions at three levels: logical and physical container level, logical and
physical handling unit level, and piece level. For Q3, FY 2011, 89 percent of data
exclusions at the physical container level occurred during mail processing because:

       Containers had an Intelligent Mail Container Barcode that was not unique
        (43 percent).

       One or more mailpieces in a container entered the system at an invalid entry facility
        for that discount type (16 percent).

       One or more mailpieces in a container did not have a corresponding record in the
        FAST Mail Direction Table (16 percent).

       The appointment details on the container scan record did not match the
        appointment details on the container (14 percent).


6
    A Guide to Intelligent Mail for Letters and Flats, Version 7.3.4, page 107; and Start-the-Clock, Version 5, pages 7-8.


                                                             4
Service Performance Measurement Data –                                                              CRR-AR-11-003
 Commercial Mail


In addition, SASP processes mailpiece data when a valid Start-the-Clock has been
calculated. However, there were several issues with the way Start-the-Clock business
rules were affecting service measurement. These issues occurred because the Postal
Service underestimated the complexity of the process and, therefore, has had to make
numerous changes to the Full-Service IMb Start-the-Clock business rules to simplify the
process.

Some improvements have been recently realized in service measurements. For
example, as of March 4, 2011, only 3 percent of Full-Service IMb mail was included in
service performance measurements but that percentage improved to approximately
12 percent by March 31, 2011. While this change signifies improvement in this area,
eDoc errors and SASP data exclusions continue to significantly impact service
performance measurement.

Postal Service Corrective Actions

Management is aware that the process they use to obtain service performance
measurement scores for commercial mail is not effective. They are taking action to
address the various issues and increase the volume of Full-Service IMb mail included in
the measurement of service performance.

Specifically, the Postal Service:

   Simplified Start-the-Clock business rules in June 2011.

   Will generate compliance reports for the field and mailers to increase awareness of
    the type and magnitude of data exclusion errors.

   Implemented a new Full-Service Mailer Certification process in November 2010 to
    reduce mail preparation and eDoc errors. However, the Postal Service notified the
    PRC that they suspended the mailer certification process on May 27, 2011, because
    they are working toward implementing national Critical Acceptance Times and
    Critical Entry Times.

   Implemented a number of SASP enhancements and system modifications in June
    2011 to improve data accuracy. Specifically, Release 6 for SASP includes 13 system
    modifications designed to increase the amount of usable data (yield) and the
    accuracy of service measurement data. This includes modifications to implement
    certain business rules for Start-the-Clock calculations and acceptance times.

   Has deployed, on a limited basis, hand-held Intelligent Mail Devices (IMDs), or
    scanners, with cellular capability to address issues at DMUs without a dedicated
    data line, enabling verification of Full-Service mailings 7 at these locations.

7
  Verification of Full-Service mailings identifies errors prior to induction of mailpieces into the system. This affords an
opportunity for mailers to correct errors prior to acceptance, which increases the number of qualified mailpieces, in
turn increasing the yield of data available for service performance measurement.


                                                             5
Service Performance Measurement Data –                                                          CRR-AR-11-003
 Commercial Mail



Ongoing Audit Work

We consider these planned and ongoing efforts to be proper steps for increasing the
effectiveness of the service performance measurement process. However, additional
audit work will be necessary to evaluate the success of these measures. For example,
we will:

    Evaluate the effectiveness of simplified Start-the-Clock business rules.

    Evaluate the impact of the decision to terminate the Full-Service Mailer certification
     process.

    Examine any remaining barriers to effective Full-Service IMb service measurement
     reporting.

We plan to issue our final audit report assessing service performance measurement
after evaluating the effects of corrective actions implemented during June 2011. See
Appendix A for additional information about this audit.

Discounts Provided for Unqualified Full-Service IMb Mail

Unqualified Full-Service IMb mailings submitted by mailers continue to contribute to
data exclusions, limiting the amount of data available for service measurement. After
mail acceptance, data is sent to SASP to verify whether the mailing complies with
Full-Service IMb requirements. Mailpieces found to have one or more errors are
excluded from service measurement and reported in Mail Data Quality reports that
identify the dollar value of Full-Service eDoc postage corrections8 which the Postal
Service should reclaim.

However, the Postal Service has delayed Full-Service eDoc postage corrections to
allow more time for mailers to implement corrections to eDoc 9 errors. Management
stated that software issues continue to be an ongoing problem and they are working
with mailers to address these issues. Management also stated they want to improve the
quality of mailings and promote the value proposition of Full-Service IMb rather than
mandate compliance. In addition, management stated they are currently not granting
discounts for mailings which do not have proper container or tray barcodes because, in
these cases, these critical errors cause the entire mailing to be rejected and returned to
the mailer.



8
  Mailpieces prepared in accordance with Full-Service IMb requirements are eligible for discounts of $0.003 for each
First-Class mailpiece and $0.001 for each Standard Mail, Periodicals, and Bound Printed Matter mailpiece. Discounts
are applied to the postage statement at the time of mailing.
9
  PostalOne! Full-Service Error Report – allows eDoc submitters to review the quality of submissions, identify jobs
with errors, and calculate the correct postage. This report also allows the eDoc submitter to request reconciliation of
identified errors. Domestic Mail Manual (DMM) Advisory, December 17, 2010.


                                                           6
Service Performance Measurement Data –                                   CRR-AR-11-003
 Commercial Mail


However, they have not established an alternate date to begin deployment of postage
corrections for unqualified mailpieces. Without this milestone, the Postal Service
eliminates the incentive for mailers to reduce the number of errors in their mailings since
the discount is allowed for both qualified and unqualified mailpieces. As errors continue
to exist in mailings, data will continue to be excluded from service measurement. See
Appendix A for additional information.

Revenue loss for unqualified mail for the period November 2010 through June 2011 is
approximately $7.4 million. In addition, we estimate that the Postal Service could incur
additional revenue loss of $11.8 million for the 2-year period going forward. See
Appendix B for additional details on monetary impacts totaling nearly $19.2 million.

Recommendation

We recommend the chief information officer and executive vice president direct the vice
president, Mail Entry and Payment Technology, to:

1. Establish milestones for implementing recovery of Full-Service Intelligent Mail
   Barcode discounts provided to mailers when Full-Service mailings do not meet the
   specific requirements for the discounts received.

Management’s Comments

Management agreed with our finding and recommendation. Management stated they
are working cooperatively with mailers participating in the full-service program to
increase their compliance with program requirements. Business Mailer Support and the
Help Desk identify mailers who are non-compliant with key full-service criteria impacting
service measurement. The mailer monitoring and intervention process began in
February for certified mailers and was expanded in July to include all full-service
mailers. Mailers contacted through this process are working through non-compliance
issues to make improvements that will increase the percentage of their mail included in
service measurement. Mailers who are unable to correct their documentation or process
to comply with full-service preparation requirements in the agreed timeline will be
denied access to the full-service discount.

In correspondence received subsequent to their management comments, management
disagreed with the OIG’s 2-year projection for the additional revenue loss. Management
also stated that during the period of November 2010 to June 2011, the business rules
associated with Start-the-Clock and the associated requirements in eDOC were very
complex and difficult for mailers and the Postal Service to follow. To mitigate this issue,
they simplified these rules on June 26, 2011, to reduce the frequency of unqualified
mailpieces. According to management, the impact of that change is not yet known since
they implemented the changes only 2 months ago; therefore any projections of revenue
loss at this time would be premature based on the fact that the baseline data is no
longer valid. See Appendix C for management’s comments in their entirety.




                                             7
Service Performance Measurement Data –                                 CRR-AR-11-003
 Commercial Mail


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and corrective actions should resolve the
issues identified in the report. The OIG considers recommendation 1 significant and,
therefore, requires OIG concurrence before closure. We believe our projection of
potential additional revenue loss is reasonable; however, we will continue to monitor
unqualified discounts during our on-going audit. This recommendation should not be
closed in the follow-up tracking system until the OIG provides written confirmation that
the recommendations can be closed.




                                           8
Service Performance Measurement Data –                                                         CRR-AR-11-003
 Commercial Mail


                                 Appendix A: Additional Information

Background

SASP System

Seamless acceptance is the Postal Service’s program to streamline all aspects of mail
acceptance, verification, payment, and induction. SASP is used to process data from
IMb scans. SASP associates mailer manifest data (such as eDocs) with operational
data (such as barcode scans) and reference data (such as Customer Registration
Identification, Mailer Identification, facility, and delivery point data). SASP automates
several mail acceptance activities as part of its integration with PostalOne! and provides
the capability to produce internal service performance diagnostic information as well as
in-depth mail profile information, such as where the mail was dropped and processed
and the volume of the mailing. This information is provided in reports to assist product
planners, pricing personnel, and other Postal Service departments in analyzing and
assessing how efficiently and effectively they are processing mail. The scan data is also
sent to iMAPS daily. The Postal Service spent approximately $116 million to support the
SASP infrastructure for the Full-Service IMb program.

iMAPS

iMAPS incorporates the Postal Service’s hybrid service performance measurement
strategy, combining the capabilities of the Intelligent Mail initiative with external
reporters used to measure the performance of market-dominant products. The Postal
Service contracted with an independent external contractor to develop iMAPS to
measure and report service scores for the market-dominant mail classes of Presort
First-Class Mail, Standard Mail, and Periodicals based on the mailpieces and scans
received from SASP, independent reporters in the field, 10 and other Postal Service data
sources. iMAPS randomly samples from the population of mailpieces that contain
sufficient information to measure service performance using Full-Service IMb provided
by SASP.

A pilot system testing the Full-Service IMb process served as the iMAPS data source for
FY 2009 and the first three quarters of FY 2010. The pilot system used a limited number
of mailers using simplified business rules for Start-the-Clock events. The Postal Service
began to use Full-Service IMb scans in Q4, FY 2010 to report service performance
measurement data; however, analysis of samples from the data identified significant
data errors which affected service measurement. The errors occurred both as a result of
inaccurate mailer provided information as well as inaccurate system business rules
developed by the Postal Service.




10
  iMAPS maintains a panel of thousands of residential and business customers who have agreed to report the
receipt dates of IMb items they receive by using scanners. Members of the panel are referred to as “reporters.”


                                                          9
Service Performance Measurement Data –                                     CRR-AR-11-003
 Commercial Mail


iMAPS is designed to accommodate large-scale sampling of full-service IMb mailings,
both in terms of volume of mailpieces; and distribution of entry locations, destinations,
mail types, and representation of other characteristics. In Q1, 2011, only 13
First-Class mailers met the criteria for Full-Service IMb certification. Therefore, the data
in the service performance measurement reports was limited to those mailers who
mailed Pre-Sort First-Class Mail from only 12 of 74 origin districts.

During Q2, FY 2011, a total of 100 Presort First-Class Mailers were certified, resulting in
usable data from 65 origin districts. The Postal Service did not report service scores for
Standard Mail because these mailers were not certified until late in Q 2. Because of the
limited volume of measurable mail, during Qs1 and 2, iMAPS did not exercise the full
capability of its sampling algorithms in the calculations and the results were not
representative of mail flow throughout the entire network.

Full-Service IMb Certification Process

The quality assurance process the Postal Service established in November 2010
increased the number of certified mailers using Full-Service IMb while also improving
mailer electronic documentation (eDoc) accuracy. The revised certification process
involved two components:

   The acceptance clerk must physically sample mail contents to ensure it is prepared
    per the requirements of Full-Service. The clerk must inspect mailpieces, handling
    units, and containers to ensure they have been prepared using the IMb and ensure
    the mailer has submitted eDocs with their Full-Service IMb mailings. Barcodes must
    be confirmed by handheld device sampling and associated to the electronic
    Postage Statement.

   The Postal Service must verify eDoc information for Full-Service IMb compliance
    and compare it to Customer/Supplier Agreement (C/SA) information, where
    applicable, to verify the accuracy of Start‐The‐Clock elements.

The mailer certification program has reduced unqualified mailpieces. Specifically,
the container yield for certified mailers was twice that of non-certified mailers at
98.1 percent compared to 47.3 percent, as shown in Table 3.




                                             10
Service Performance Measurement Data –                                                             CRR-AR-11-003
 Commercial Mail


                                            Table 3: Container Yields




            Source: Mailers Technical Advisory Committee (MTAC) Presentation, Postal Service vice president
            Product Information. SASP Data Exclusion Reports (these containers had mailing dates between
            January 22–28, 2011).

The Postal Service focused on certifying the largest mailers first in order to obtain a
significant volume of measureable Full-Service IMb mailings for reporting as quickly as
possible. Only data from certified mailers is included in the measurement of service
performance for commercial mail.

To improve the percentage of usable data, in Q1, FY 2011, the Postal Service began
certifying customers’ eDocs to ensure compliance with Full-Service IMb data
requirements. As of March 4, 2011, 37 percent of IMb mail was Full-Service IMb
compliant 11, there were 113 certified mailers, and only 3 percent of Full-Service IMb
mail was included in service performance measurements, as shown in Table 4.




11
     IMb mail can be classified as either “Basic IMb compliant” or “Full-Service IMb compliant.”


                                                             11
Service Performance Measurement Data –                                                         CRR-AR-11-003
 Commercial Mail


                        Table 4: Full-Service IMb Compliant Mailings




            Source: PRC’s FY 2010 Annual Compliance Determination Report, pages 47-49. The first chart
            includes all IMb mail and the second chart includes the Full-Service IMb Compliant Mail (37 percent)
            from the first chart. Therefore, of the 37 percent of Full-Service IMb compliant mail, only 3 percent is
            included in service performance measurement.

Full-Service IMb certification was to continue until an adequate volume of mail was
identified as a valid representative sample for service performance measurement.
However, on May 27, 2011, the Postal Service notified the PRC that they suspended
the mailer certification process because they are working towards implementing national
Critical Acceptance Times and Critical Entry Times.

IMDs

Handheld IMD scanners run the “Acceptance and Verification” application and are
operated by Business Mail Entry (BME) clerks accepting and verifying Full-Service IMb


                                                        12
Service Performance Measurement Data –                                    CRR-AR-11-003
 Commercial Mail


mailings. This application provides BME clerks the functionality to verify Full-Service
IMb mailings. BME clerks use the IMD handheld scanners running this application to
collect verification samples on Full-Service mailings to validate barcodes for Intelligent
Mail.

Although the Postal Service has worked to improve the scanning process using IMDs,
improvements are still needed. For example, we observed that the scanning procedures
of five mailings and issues regarding matching verification scan data to the mailer’s
postage statements existed in four of the five mailings. This occurred because the
postage statement (or Job Identification) was not available in the scanner during initial
verification scans. Although this issue pertains to the verification process, it does not
directly impact the measurement of service performance.

The Postal Service has established a plan of action to address this and other IMD
issues in the near future. For example, the Postal Service is deploying, on a limited
basis, IMDs with cellular capability to address connectivity issues at DMUs. Due to
funding constraints, additional IMD purchases are not planned until FY 2012.

Objective, Scope, and Methodology

Our overall audit objective is to determine whether the process for service performance
measurement for commercial mail is effective.

To assess the SASP and iMAPS systems, we analyzed systems documentation,
interviewed program personnel, and evaluated business rules for Start-the-Clock
events, mailer certification processes, and data exclusions. We also evaluated whether
internal controls were in place over iMAPS.

To observe controls over the IMD scanning process, we visited five sites and
interviewed mail acceptance personnel and determined whether management updated
Customer/Supplier Agreements at these locations. We also interviewed mailer
representatives at selected locations to determine their level of confidence in the
process and to identify any problems with the process that Postal Service personnel has
not already identified.

To determine the effectiveness of the mailer certification process, we analyzed eDoc
errors for mailers who completed the certification process to determine whether the
quality assurance process led to a reduction in data exclusions.

To determine whether Full-Service IMb mailings are a valid representation of the
Presort First-Class and Standard Mail universe, we interviewed Postal Service
personnel from Customer Knowledge Management who work closely with the external
independent contractor and used our expert’s opinion.

We conducted this interim performance audit from November 2010 through
September 2011 in accordance with generally accepted government auditing standards



                                             13
Service Performance Measurement Data –                                     CRR-AR-11-003
 Commercial Mail


and included such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. We discussed our observations and conclusions with management officials
on June 28, 2011, and included their comments where appropriate.

We assessed the reliability of computer generated data by performing analytical and
comparative tests on the automated data we received. We also verified the accuracy of
the data by confirming our analysis and results with management and other data
sources. We determined that the data were sufficiently reliable for the purposes of this
report.

Prior Audit Coverage

         Report Title             Report       Final     Report Results
                                  Number       Report
                                               Date
         U.S. Postal Service      GAO-10-      October   The GAO 12 recommended the
         Needs to                 145          2009      Postal Service improve
         Strengthen System                               management of the program,
         Acquisition and                                 including developing a
         Management                                      comprehensive cost estimate
         Capabilities to                                 and sound acquisition and
         Improve Its                                     development policies. There
         Intelligent Mail®                               were seven specific
         Full Service                                    recommendations and the
         Program                                         Postal Service disagreed with
                                                         the following three: (1) develop
                                                         a comprehensive cost estimate;
                                                         (2) complete an overall program
                                                         plan for the entire Full-Service
                                                         program; and (3) define the
                                                         core set of requirements and
                                                         use them as a basis for
                                                         developing a reliable cost
                                                         estimate. The Postal Service
                                                         did not comment on the
                                                         recommendation to complete
                                                         program plans, develop specific
                                                         requirements to establish a
                                                         robust risk management
                                                         process, and develop a system
                                                         integration plan.


12
     Government Accountability Office (GAO).


                                                 14
Service Performance Measurement Data –                                   CRR-AR-11-003
 Commercial Mail


     Intelligent Mail       GAO-09-      May 2009     The GAO recommended the
     Benefits May Not       599                       Postal Service (1) develop a
     Be Achieved if Key                               comprehensive Intelligent Mail
     Risks Are Not                                    strategy, (2) develop
     Addressed                                        attributable cost and savings
                                                      information, and (3) develop a
                                                      plan that addresses how the
                                                      Postal Service will mitigate
                                                      risks, including the implications
                                                      of the impact of lower-than-
                                                      anticipated customer adoption
                                                      of Intelligent Mail. The Postal
                                                      Service agreed to
                                                      recommendations 1 and 3 and
                                                      has begun implementing them,
                                                      but stated that it already has
                                                      cost and savings information.
     Business Rules for     EN-AR-09-    3/12/2009   Operational Risk: The Postal
     Modern Service         002                      Service developed the new
     Standards                                       service standards based on
                                                     operational capability rather
                                                     than actual service
                                                     performance. Strategic Risk:
                                                     Stakeholders (congress, PRC,
                                                     MTAC, major mailers, etc.) may
                                                     have concerns that service
                                                     standards are not aligned with
                                                     stakeholders' expectations. The
                                                     Postal Service agreed with
                                                     these conclusions.
     Intelligent Mail       IS-AR-09-    3/31/2009   There were three
     Barcode Project        006                      recommendations and the
     Planning and                                    Postal Service agreed to two
     Application                                     and partially agreed to one by
     Development Life                                stating the following: “we will
     Cycle                                           ensure the Certification and
                                                     Accreditation process is
                                                     completed and all residual risks
                                                     identified. However, depending
                                                     on the nature of the residual
                                                     risks, we will determine if the
                                                     application will deploy to
                                                     production, under the condition
                                                     that the program remediate any
                                                     remaining risks within an
                                                     acceptable timeframe.”




                                            15
Service Performance Measurement Data –                                   CRR-AR-11-003
 Commercial Mail


     Intelligent Mail/      MS-AR-09-    3/31/2009   There were six
     Seamless               006                      recommendations and the
     Acceptance Project                              Postal Service agreed to four
     Management                                      and partially agreed to two,
                                                     stating the following: “(1) due to
                                                     the range of activities underway
                                                     to improve address quality,
                                                     there is no means to determine
                                                     which portion of the
                                                     improvement can be attributed
                                                     to this application. With such
                                                     limitations there is no reason to
                                                     try to quantify strategic benefits
                                                     to the Postal Service and
                                                     mailers; (2) the requirement to
                                                     develop potential cost savings
                                                     estimates to establish baseline
                                                     for comparison with realized
                                                     savings for future project
                                                     releases is inappropriate for
                                                     both Releases 1 and 2.” If
                                                     Release 3 is developed and the
                                                     Decision Analysis Report
                                                     identifies specific cost
                                                     reductions, management will
                                                     pursue this action.




                                            16
   Service Performance Measurement Data –                                                       CRR-AR-11-003
    Commercial Mail



                                       Appendix B: Monetary Impacts

           Finding                        Impact Category                                          Amount
              1             Revenue Loss 13 – November 2010 – June 2011                          $7,397,375
              1             Revenue Loss – July 2011 – June 2013                                 11,796,355
                            Total                                                               $19,193,730

   The Postal Service’s decision not to collect additional postage for unqualified
   Full-Service IMb mailpieces could have a monetary impact of as much as $19,193,730
   for the period November 2010 through June 2013, if no changes are made to the
   current policy.

   Revenue loss totaling approximately $7.4 million is based on discounts allowed for
   unqualified Full-Service IMb mail for the period November 2010 through June 2011 and
   is summarized in Table 5.

                                         Table 5: Additional Postage

                          Number of     Number of
                         Full-Service     Affected Percentage    Additional Percentage
Month                     Mailpieces    Mailpieces   Affected      Postage     Change
November 2010          3,726,857,637   329,573,982       8.84 $ 881,623.41
December 2010          3,176,664,747   403,648,965      12.71 1,075,270.70        21.96
January 2011           3,725,408,761   463,324,186      12.44 1,123,945.28         4.53
February 2011          3,400,726,632   306,050,770       9.00    804,001.05      -28.47
March 2011             4,087,884,412   291,025,347       7.12    737,154.25       -8.31
April 2011             4,130,487,053   338,339,044       8.19    850,323.30       15.35
May 2011               3,907,569,690   483,041,028      12.36 1,249,195.20        46.91
June 2011              4,029,968,074   294,689,434       7.31    675,861.42      -45.90
 Totals               30,185,567,006 2,909,692,756       9.64 $7,397,374.61
    Source: MicroStrategy Mail Data Quality, Full-Service eDoc Verification Invoice Report.

   The potential revenue loss for future mailings over a 2-year period, July 2011 through
   June 2013, was projected to be approximately $11.8 million. 14



   13
      Amount Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
   procedures, agreements, requirements, or good business practices were lacking or not followed. May be recoverable
   or unrecoverable. May apply to historical events or a future period (in the sense perceived future losses may be
   prevented by the implementation of a recommendation).
   14
      We calculated the 2-year projection by using a trend analysis. To be conservative, we omitted the implementation
   month of November 2010 to calculate our average decline. We calculated the percentage of the declining average for
   the additional postage between December 2010 and June 2011 as follows: December-January = 4.53 percent;
   January-February = -28.47 percent; February-March = -8.31 percent; March-April = 15.35 percent; April-May = 46.91
   percent; May-June = -45.90 percent; for an average decline of -2.65 percent. Therefore, we calculated the 2-year
   projection from July 2011 through June 2013 to be $11,796,354.88.


                                                            17
Service Performance Measurement Data –                       CRR-AR-11-003
 Commercial Mail




                         Appendix C: Management’s Comments




                                         18
Service Performance Measurement Data –        CRR-AR-11-003
 Commercial Mail




                                         19
Service Performance Measurement Data –        CRR-AR-11-003
 Commercial Mail




                                         20
